No.

IN THE SUPREME COURT
OF THE UNITED STATES

FRANCI SCO ALMANZA-GARCIA,
Petitioner,

v
RICK COURSEY,
Superintendent,

Respondent.

On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit

PROOF OF SERVICE

I, Stephen R. Sady, counsel of record and amember of the Bar of this Courto certiff
that pursuant to Rule 29.3, service has been made of the within Motion for Leave to Proceed

In Forma Pauperis and Petition for Writ of Certiorari on the counsel for the respondent by
depositing in the United States Post Office, in Portland, Oregon on August 20,2021, first
class postage prepaid, an exact and

full copy thereof addressed to:

I

FREDERICK M. BOSS
Deputy Attorney General
BENJAMIN GUTMAN
Solicitor General
REBECCA M. AUTEN
Assistant Attorney General
1162 Court St. NE

Salem, Oregon 97301-4096
Telephone: (503) 37 8-4402
rebecca.m. auten@doj state.or.us
.

Further, the original and ten copies were mailed to the Honorable Scott S. Harris,

Clerk of the United States Supreme Court, by depositing them in a United States Post
Office Box, addressed to

I First Street, N.E., Washington, D.C., 20543, for filing on this

20th day of August,202l, with first-class postage prepaid.

Additionally, I electronically filed the foregoing Motion for Leave to Proceed In
Forma Pauperis and Petition for Writ

of Certiorari by the using the Supreme Court's

Electronic filing system on August 20, 202r

R.S
Attorney for Petiti

2

